Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




SOME LOUISIANA CHILD DAY CARE
CENTERS DID NOT ALWAYS COMPLY
 WITH STATE HEALTH AND SAFETY
   LICENSING REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                       August 2014
                                                      A-06-13-00036
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  We determined that all four providers that we reviewed did not always comply with
  applicable State licensing requirements to ensure the health and safety of children.


WHY WE DID THIS REVIEW

The Administration for Children and Families provides Federal grants through several programs,
including Head Start and the Child Care and Development Fund (CCDF). In a recent report
summarizing the results of 24 audits of Head Start grantees, we described multiple health and
safety issues that put children at risk. To determine whether similar health and safety risks exist
at childcare providers that received CCDF funding, we audited four licensed child day care
centers (providers) that received CCDF funding in Baton Rouge and New Orleans, Louisiana.
We conducted this review in conjunction with our review of 20 family day care homes (report
number A-06-13-00037).

The objective of this review was to determine whether the Department of Children and Family
Services’ (State agency) monitoring ensured that providers that received CCDF funds complied
with State licensing requirements related to the health and safety of children.

BACKGROUND

The CCDF (authorized by the Child Care and Development Block Grant Act and the Social
Security Act, section 418) assists low-income families, families receiving temporary public
assistance, and families transitioning from public assistance to obtain childcare so that they may
work or obtain training or education. Combined funding for the CCDF program for fiscal year
2012, including the block grant’s discretionary fund and the CCDF mandatory and matching
funds, was approximately $5.2 billion.

The State agency is the lead agency and sponsor of the Child Care Assistance Program, which
helps low- to moderate-income families in Louisiana pay for childcare. Parents may select a
provider that satisfies the applicable State and local requirements, including basic health and
safety requirements.

As the lead agency, the State agency must monitor licensed providers. According to the Child
Care and Development Fund Plan for Louisiana FFY [Federal fiscal year] 2012 – 2013, the State
agency is responsible for childcare licensing and enforcement personnel, who conduct
inspections to ensure that providers meet basic health and safety standards. State regulations
require the State licensing agency to conduct unannounced inspections of providers at regular
intervals not to exceed 1 year.

WHAT WE FOUND

Although the State agency conducted the required onsite monitoring at all four of the providers
that we reviewed, it did not ensure that providers that received CCDF funds complied with State


Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                               i
licensing requirements related to the health and safety of children. We determined that all four
providers did not comply with one or more State licensing requirements to ensure the health and
safety of children. Specifically, we found that the four providers did not always comply with
State licensing requirements related to physical conditions, and one of the providers did not
comply with all of the required criminal records and child abuse and neglect registry check
requirements. In addition, one provider exceeded the allowable child-to-staff ratio.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   require providers to complete specific training requirements related to health and safety
        regulations and

    •   ensure that all providers’ employees who provide direct services to children have had
        criminal records and child abuse and neglect registry checks.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described actions that it had taken to
address our findings. The State agency said that it had conducted followup visits to providers
and that the providers had corrected all deficiencies identified in our report. In addition, the
State agency said that it is not in a position to implement our recommendations because the State
is currently transitioning authority over CCDF to another State department. However, the State
agency said that it would share the recommendations with the succeeding department.




Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                                 ii
                                                    TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

         Why We Did This Review ............................................................................................... 1

         Objective .......................................................................................................................... 1

         Background ...................................................................................................................... 1
               Louisiana Childcare Services ............................................................................... 2
               Child Care Aware of America .............................................................................. 2
               Administration for Children and Families Proposed Regulations........................ 2

         How We Conducted This Review .................................................................................... 3

FINDINGS .................................................................................................................................. 3

         Providers Did Not Always Comply With Physical Conditions Requirements ................ 3
                State Requirements ............................................................................................... 3
                Providers Did Not Comply With Physical Conditions Requirements ................. 4

         One Provider Did Not Always Comply With Required Criminal Records and
          Child Abuse and Neglect Registry Checks ................................................................... 5
               State Requirements ............................................................................................... 5
               One Provider Did Not Comply With Required Criminal Records and
                 Child Abuse and Neglect Registry Checks ........................................................ 5

         One Provider Did Not Always Comply With the Allowable Child-to-Staff Ratio .......... 5
               State Requirements ............................................................................................... 5
               One Provider Did Not Comply With the Allowable Child-to-Staff Ratio ........... 6

         Cause of Noncompliance.................................................................................................. 6

RECOMMENDATIONS ............................................................................................................ 6

STATE AGENCY COMMENTS ............................................................................................... 6

APPENDIXES

           A: Audit Scope and Methodology ................................................................................. 7

           B: Federal Regulations and State Requirements ............................................................ 9

           C: Photographic Examples of Noncompliance
               With Physical Conditions Requirements .............................................................. 12


Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                                                                               iii
        D: State Agency Comments ......................................................................................... 17




Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                                                             iv
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF) provides Federal grants through several
programs, including Head Start and the Child Care and Development Fund (CCDF). In a recent
report summarizing the results of 24 audits of Head Start grantees, 1 we described multiple health
and safety issues that put children at risk. To determine whether similar health and safety risks
exist at childcare providers that received CCDF funding, we audited four licensed child day care
centers 2 (providers) that received CCDF funding in Baton Rouge and New Orleans, Louisiana.
We conducted this review in conjunction with our review of 20 family day care homes (report
number A-06-13-00037).

OBJECTIVE

Our objective was to determine whether the Department of Children and Family Services’ (State
agency) monitoring ensured that providers that received CCDF funds complied with State
licensing requirements related to the health and safety of children.

BACKGROUND

Authorized by the Child Care and Development Block Grant (CCDBG) Act (42 U.S.C. § 9858 et
seq.) and section 418 of the Social Security Act (42 U.S.C. § 618), the CCDF assists low-income
families, families receiving temporary public assistance, and families transitioning from public
assistance to obtain childcare so that they may work or obtain training or education. Combined
funding for the CCDF program for fiscal year 2012, including the block grant’s discretionary
fund and the CCDF mandatory and matching funds, was approximately $5.2 billion.

The CCDBG Act and implementing Federal regulations require the State to maintain a plan that
certifies that the State has requirements in State or local law to protect the health and safety of
children, and the plan must certify that procedures are in effect to ensure that childcare providers
comply with these requirements. 3 In addition, Federal regulations require States to designate a
lead agency to administer the CCDF program (45 CFR § 98.10).




1
 Review of 24 Head Start Grantees’ Compliance With Health and Safety Requirements (A-01-11-02503, issued
December 13, 2011).
2
  We limited our review to Class A child day care facilities. Louisiana law defines a child day care facility as an
individual or entity responsible for providing care to seven or more children not related to the caregiver,
unaccompanied by parent or guardian, on a regular basis for at least 12.5 hours in a continuous 7 day week
(Louisiana Administrative Code (LAC) 67:III.7302(A)(1)). To be eligible to receive State or Federal funding,
including CCDF payments, child day care facilities licensed by the State agency must be licensed as Class A (Child
Care and Development Fund Plan for Louisiana FFY [Federal fiscal year] 2012 – 2013, § 2.7.9).
3
    42 U.S.C. §§ 9858c(c)(2)(F) and (G) and 45 CFR §§ 98.15(b)(5) and(6).


Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                                              1
Federal Regulations at 45 CFR §§ 98.11(b)(4) and (6) state that in retaining overall responsibility
for the administration of the program, the lead agency must ensure that the program complies
with the approved Plan and all Federal requirements and must monitor programs and services.

Louisiana Childcare Services

The State agency is the lead agency and sponsor of the Child Care Assistance Program, which
helps low- to moderate-income families in Louisiana pay for childcare. Parents may select a
childcare provider that satisfies the applicable State and local requirements, including basic
health and safety requirements.

As the lead agency, the State agency must monitor licensed providers. According to the Child
Care and Development Fund Plan for Louisiana FFY 2012 – 2013, the State agency is
responsible for childcare licensing and enforcement personnel, who conduct inspections to
ensure that providers meet basic health and safety standards. State regulations require the State
agency to conduct unannounced inspections of providers at regular intervals not to exceed 1 year
(LAC 67:III.7207(C)(1)).

Child Care Aware of America

Child Care Aware of America (CCAA) published a 2013 update, We Can Do Better, that
reviewed and ranked State childcare center regulations and oversight. 4 CCAA stated that
effective monitoring policies are important for child safety and center accountability for
compliance with State licensing requirements. CCAA added that making inspection reports
public is an important form of consumer education because parents cannot make informed
selections among childcare settings without having access to compliance information.
Otherwise, they assume that a State license is a seal of approval. CCAA also suggested that with
the important role effective monitoring plays in promoting child safety and programs’
compliance with licensing requirements, the number of programs that each licensing inspector
covers needs to be reduced, not increased.

Administration for Children and Families Proposed Regulations

ACF recently proposed amending current CCDF regulations to improve childcare health, safety,
and quality. 5 The proposed changes include a requirement that State lead agencies perform an
initial onsite monitoring visit and at least one annual unannounced onsite visit of providers that
have received CCDF subsidies. The proposal also requires providers responsible for the health
and safety of children to receive specific and basic training commensurate with their professional
responsibilities. In addition, ACF stated that it strongly encourages lead agencies to establish
requirements for ongoing training.

4
  CCAA works with more than 600 State and local Child Care Resource and Referral agencies nationwide. CCAA
leads projects that increase the quality and availability of childcare professionals, undertakes research, and advocates
childcare policies that positively impact the lives of children and families.
5
    78 Fed. Reg. 29441 (May 20, 2013).


Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                                                  2
HOW WE CONDUCTED THIS REVIEW

We selected 4 of the 99 Class A providers in Baton Rouge and New Orleans, Louisiana, that had
a one-star rating 6 and received CCDF funding on April 30, 2013. We conducted unannounced
site visits at the four providers from June 17 through 19, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains
details on the Federal regulations and State licensing health and safety requirements that pertain
to providers, and Appendix C contains photographic examples of noncompliance with physical
conditions requirements.

                                                      FINDINGS

Although the State agency conducted the required onsite monitoring at all four of the providers
that we reviewed, it did not ensure that providers that received CCDF funds complied with State
licensing requirements related to the health and safety of children. We determined that all four
providers did not comply with one or more State licensing requirements to ensure the health and
safety of children. Specifically, we found that the four providers did not always comply with
State licensing requirements related to physical conditions, and one of the providers did not
comply with all of the required criminal records and child abuse and neglect registry checks. In
addition, one provider exceeded the allowable child-to-staff ratio.

PROVIDERS DID NOT ALWAYS COMPLY WITH
PHYSICAL CONDITIONS REQUIREMENTS

State Requirements

A prospective provider applies for a child day care center license by completing, signing, and
submitting to the State licensing agency an application to obtain a child day care center license. 7
The application includes an acknowledgment that the applicant has read the State licensing
regulations, agrees to abide by them, and will allow full unannounced inspections by the State
licensing agency’s staff. State licensing regulations include the following requirements related
to the physical conditions at the providers:

       •   Prescription and over-the-counter medications, poisons, cleaning supplies, harmful
           chemicals, equipment, tools, and any substance with a warning label stating that it is

6
    A rating of one star indicates that a center has a license in good standing and no outstanding deficiencies.
7
 Louisiana’s Day Care Licensing Class A Child Day Care Center Licensing Standards
& Regulations (State licensing regulations), LAC 67:III.73.

Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                                                3
        harmful or that it should be kept out of the reach of children must be locked away from
        and inaccessible to children (LAC 67:III.7327(A)).

    •   Unused electrical outlets must be protected by a safety plug (LAC 67:III.7327(G)).

    •   Strings and cords (such as those found on window coverings) must not be within the
        reach of children (LAC 67:III.7327(H)).

    •   The center and yard must be clean and free from hazards (LAC 67:III.7327(L)).

    •   Outdoor space must be enclosed with a fence or other barrier to protect the children from
        traffic hazards, to prevent the children from leaving the premises without proper
        supervision, and to prevent contact with animals or unauthorized persons
        (LAC 67:III.7323(B)(3)).

    •   Crawl spaces and mechanical, electrical, or other hazardous equipment must be made
        inaccessible to children (LAC 67:III.7323(B)(4)).

Appendix B contains all relevant State licensing regulations.

Providers Did Not Comply With Physical Conditions Requirements

All four providers that we reviewed had one or more instances of noncompliance with
requirements to protect children from potentially hazardous conditions. Examples of
noncompliance included:

    •   chemicals accessible to children (Appendix C, photograph 1),

    •   unused electrical outlets that were not protected by safety plugs (Appendix C,
        photograph 2),

    •   exposed cords accessible to children (Appendix C, photograph 3),

    •   a knife in a kitchen sink accessible to children (Appendix C, photograph 4),

    •   a stove that was on and left uncovered and unattended while an employee ran water on
        the other side of the kitchen (Appendix C, photograph 5),

    •   frayed carpet on stairs that posed a tripping hazard to children (Appendix C,
        photograph 6), and

    •   a highchair with a missing connecting strap to secure a child (Appendix C, photograph 7).

In addition, we found that two providers did not keep playground areas free from hazards, such
as:


Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                               4
    •   exposed nails in the play area (Appendix C, photograph 8);

    •   exposed lining in the play area, which posed a tripping hazard (Appendix C,
        photograph 9);

    •   a playground fence with a hole large enough for a child to pass through and leave the
        play area (Appendix C, photograph 10); and

    •   a building’s crawl space that was accessible to children.

ONE PROVIDER DID NOT ALWAYS COMPLY WITH REQUIRED CRIMINAL
RECORDS AND CHILD ABUSE AND NEGLECT REGISTRY CHECKS

State Requirements

Louisiana requires documentation of a satisfactory criminal record clearance for all staff,
including all owners and operators. In addition, the regulations require that employee files
include a disclosure form noting that no justified finding of abuse and/or neglect was found
(LAC 67:III.7303(A)(2)(g)(xi) and (xii)).

For independent contractors, including therapeutic professionals and extracurricular personnel,
providers must keep on file documentation of a satisfactory criminal record check from the
Louisiana State Police as required by Revised Statutes (R.S.) 46:51.2. This check must be
obtained before the individual being present in the childcare facility or providing services for the
childcare facility (LAC 67:III.7311(B)(1)).

One Provider Did Not Comply With Required Criminal Records and
Child Abuse and Neglect Registry Checks

Two individuals at one center did not have the required background checks before beginning
work in the center. Specifically:

    •   one employee lacked a criminal records check and

    •   one speech pathologist lacked criminal records and child abuse and neglect registry
        checks.

ONE PROVIDER DID NOT ALWAYS COMPLY WITH THE ALLOWABLE
CHILD-TO-STAFF RATIO

State Requirements

When a mixed-age group includes children under age 2, the age of the youngest child determines
the child-to-staff ratio for the group. The allowable ratio for a group of children that includes a
child under age 2 but at least 1 year is seven children for each staff member. The allowable ratio


Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                               5
for a group of children that includes a child under 12 months is five to each staff member (LAC
67:III.7315(A)).

One Provider Did Not Comply With the Allowable Child-to-Staff Ratio

One provider did not comply with the allowable child-to-staff ratio. During our onsite visit, we
observed a staff member who was responsible for supervising 14 children of mixed ages,
including children under age 2.

CAUSE OF NONCOMPLIANCE

The noncompliance with State requirements occurred because the State agency did not have
procedures in place to ensure that providers received adequate training on health and safety
requirements. Though the State agency performed inspections as required, providers had
instances of noncompliance. These instances of noncompliance with health and safety
requirements indicate that additional measures need to be taken to ensure that providers clearly
understand what is required to safeguard and protect the children in their care. In accordance
with ACF’s proposed regulations, providers responsible for the health and safety of children are
to receive specific and basic training commensurate with their professional responsibilities. In
addition, ACF stated that it strongly encourages lead agencies to establish requirements for
ongoing training. State regulations require staff to obtain 12 hours of training per year in job-
related subject areas. 8 Implementation of specific training related to health and safety
regulations would reduce noncompliance.

RECOMMENDATIONS

We recommend that the State agency:

      •   require providers to complete specific training requirements related to health and safety
          regulations and

      •   ensure that all providers’ employees who provide direct services to children have had
          criminal records and child abuse and neglect registry checks.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described actions that it had taken to
address our findings. The State agency said that it had conducted followup visits to providers
and that the providers had corrected all deficiencies identified in our report. In addition, the
State agency said that it is not in a position to implement our recommendations because the State
is currently transitioning authority over CCDF to another State department. However, the State
agency said that it would share the recommendations with the succeeding department.



8
    LAC 67:III.7312(D).


Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                                   6
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

From a list of 99 Class A providers in Baton Rouge and New Orleans, Louisiana, that had a one-
star rating and received CCDF funding on April 30, 2013, 9 we selected 4 providers for our
review. We conducted a review of the providers’ records and facilities.

To gain an understanding of the State agency’s operations regarding childcare providers, we
limited our review to the State agency’s internal controls as they related to our objective.

We conducted fieldwork at two providers in Baton Rouge and two in New Orleans. We
conducted these unannounced site visits from June 17 to 19, 2013.

METHODOLOGY

To accomplish our objective, we:

    •    reviewed applicable Federal laws, State statutes, and regulations for licensing providers
         and the most recent Louisiana CCDF State plan approved by ACF;

    •    interviewed the CCDF program manager to determine how Louisiana monitored
         providers;

    •    obtained from the State agency a letter that explained our audit to providers;

    •    interviewed the Louisiana Director of Child Care Licensing regarding licensing
         requirements for providers;

    •    developed a health and safety checklist as a guide for conducting site visits;

    •    conducted unannounced site visits at the four providers we selected for review;

    •    interviewed providers to obtain a listing of center employees whose salaries were funded
         by CCDF (and who had direct access to children) to determine whether all required
         criminal history records checks were conducted; and

    •    discussed the results of our review with each of the providers, State licensing officials,
         and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


9
 At the time of our data request, April 30, 2013, was the date of the latest payments to providers. We used the latest
payment date to ensure that providers we reviewed were active in the CCDF program.

Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                                                7
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                           8
       APPENDIX B: FEDERAL REGULATIONS AND STATE REQUIREMENTS

FEDERAL REGULATIONS AND STATE PLAN

One of the goals of CCDF is to assist States in implementing the health, safety, licensing, and
registration standards established in State regulations (45 CFR § 98.1(a)(5)).

The lead agency must certify that there are in effect within the State (or other area served by the
lead agency), under State or local (or tribal) law, requirements designed to protect the health and
safety of children that are applicable to childcare providers that provide services for which
assistance is made available under the CCDF (45 CFR § 98.15(b)(5)).

The lead agency, in retaining overall responsibility for the administration of the program, must
ensure that the program complies with the approved Plan and all Federal requirements and must
monitor programs and services (45 CFR §§ 98.11(b)(4) and (6)).

The CCDF Plan for Louisiana requires the State licensing agency to conduct inspections to
ensure that providers meet basic health and safety requirements. The State licensing agency is
the State agency responsible for licensing providers (Child Care and Development Fund Plan for
Louisiana FFY 2012 – 2013, § 3.1).

The CCDF Plan allows CCDF payments to Class A centers, Class M (military
childcare centers), school-based childcare programs, registered family child day care homes, and
certified in-home childcare (Child Care and Development Fund Plan for Louisiana FFY 2012 –
2013, § 2.7.9).

STATE STATUTES AND REGULATIONS

Louisiana Administrative Code

Louisiana’s Statutes and Regulations for Licensing Class A Child Care Centers are in chapter 73,
subchapter A. Within the State licensing regulations, we used the sections listed below to
identify the instances of noncompliance.

Criminal Record Check

Section 7311(A)(5) – Criminal Record Check

For each paid and nonpaid staff person, providers must maintain a record that includes
documentation of a satisfactory criminal record check from Louisiana State Police as required by
R.S. 46:51.2. This check must be obtained before the individual begins work in the childcare
facility.

Section 7311(B)(1) – Criminal Record Check

For independent contractors, including therapeutic professionals and extracurricular personnel,
providers must keep on file documentation of a satisfactory criminal record check from the

Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                               9
Louisiana State Police as required by R.S. 46:51.2. This check must be obtained before the
individual begins work in the childcare facility.

Physical Environment

Louisiana’s licensing regulations state that the licensing agency must adopt regulations to ensure
that child day care centers meet the health, educational, and social needs of children utilizing
such homes.

Section 7327 – Safety Requirements

     •   Prescription and over-the-counter medications, poisons, cleaning supplies, harmful
         chemicals, equipment, tools, and any substance with a warning label stating that it is
         harmful or that it should be kept out of the reach of children must be locked away from
         and inaccessible to children. Whether a cabinet or an entire room, the storage area must
         be locked.

     •   Unused electrical outlets must be protected by a safety plug cover.

     •   Strings and cords (such as those found on window coverings) must not be within the
         reach of children.

     •   The center and yard must be clean and free from hazards.

     •   The provider must prohibit the use of alcohol and tobacco and the use or possession of
         illegal substances or unauthorized potentially toxic substances, fireworks, firearms, and
         pellet or BB guns (loaded or unloaded) on the childcare premises. This notice must be
         posted.

Section 7323 – Physical Environment

     •   The outdoor play space must be enclosed with a fence or other barrier to protect the
         children from traffic hazards, to prevent the children from leaving the premises without
         proper supervision, and to prevent contact with animals or unauthorized persons.

     •   Crawl spaces and mechanical, electrical, and other hazardous equipment must be made
         inaccessible to children.

Section 7315 – Required Child/Staff Ratios
Child-to-staff ratios are established to ensure the safety of all children. Only those staff members
directly involved in childcare and supervision may be considered in assessing child-to-staff
ratios. Child-to-staff ratios must be met at all times, and the number of children supervised by
one staff member must not exceed the ratios shown below. In addition, a minimum of two
childcare staff members must be present during hours of operation when children are present.



Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                              10
                                 Table: Required Child-Staff Ratios

                                           Child-Staff Ratio
                                    Ages of Children                  Ratio
                                Infants under 12 months                 5:1
                                1 year old                              7:1
                                2 years old                            11:1
                                3 years old                            13:1
                                4 years old                            15:1
                                5 years old                            19:1
                                6 years old and up                     23:1

An average of the child-to-staff ratio may be applied to mixed groups of children that are 2, 3, 4,
and 5 years old. Ratios for children under 2 or over 5 years old are excluded from averaging.
When a mixed group includes children less than 2 years old, the age of the youngest child
determines the ratio for the group to which the youngest child is assigned. When a mixed group
includes children both older and younger than 6 years old and older, the ages of the children less
than 6 years old determine the ratio for the group.

Department Access and Unannounced Inspections

Section 7302 – Inspections

The Department of Social Services, through its duly authorized agents, must inspect at regular
intervals, not to exceed 1 year or as deemed necessary by the department and without previous
notice, all childcare facilities and child-placing agencies.




Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                              11
     APPENDIX C: PHOTOGRAPHIC EXAMPLES OF NONCOMPLIANCE WITH
                  PHYSICAL CONDITIONS REQUIREMENTS




       Photograph 1: Chemicals stored in an unlocked cabinet accessible to children.




       Photograph 2: Unused electrical outlet not covered with a safety plug.


Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                    12
        Photograph 3: Exposed cords accessible and within reach of children.




        Photograph 4: A knife in a kitchen sink accessible to children.




Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)            13
         Photograph 5: A stove burner turned on and left uncovered and unattended
         while an employee was on the other side of the kitchen.




              Photograph 6: Frayed carpet on the stairs posed a tripping hazard.




Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                 14
             Photograph 7: A highchair had a missing connecting strap to secure a child.




                  Photograph 8: Exposed nails in an outdoor play area.




Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                        15
           Photograph 9: Exposed playground lining posed a tripping hazard.




     Photograph 10: A hole in the fence in the playground area left the area unsecure.


Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-06-13-00036)                      16
                              APPENDIX D: STATE AGENCY COMMENTS 





            ""\..¥ Department of
             JJd Children &                               627 North 4th Street
                                                                                  10) 225.342.0286
                                                                                  iF! 225.342.8636       Bobby Jindal. Governor
             Family Services                              Baton Rouge. LA 70802
                                                                                  www.dcfs.la .gov
                                                                                                         Suzy Sonnier. Secretary

             Builrlmg a Stranger Lnu isimw




            July 3, 2014



            Patricia Wheeler
            Regional Inspector General for Audit Services
            Office of the Inspector General - Dept. of Health and Human Services
            8000 Centre Park Drive, Suite 375
            Austin, Texas 78754
            Attn.: Sylvie Witten, Aud it Manager

            RE: Office of Inspector General - Draft Report A-06-13-00036

            Dear Ms. Wheeler:

            The safety and well-being of ch ildren is our highest priority at the Louisiana Department of Children and
            Family Services (DCFS). DCFS is commi tted to working with stakeholders to ensure Child Day Care
            Centers licensed by the State, including those receiving Child Care and Development Fund (CCDF)
            resources are providing healthy and safe environments for chi ldren in their care. Providers are expected
            to comply with all licensing requirements and the department monitors their efforts through contracts
            with local resource and referra l agencies as well as by way of site visits conducted by DCFS staff. State
            Law requires one unannounced visit per year per provider and investigation of all complaints however
            DCFS typically co nducts more on-site monitoring than this minimum .

            Over the last several years, the early childhood system in Louisiana has undertaken significant refo rms.
            Legislation was enacted during the most recent legislative session which will furthe r stream line early
            childhood learning services and transition child care licensing authority and management of CCDF from
            DCFS to the Louisiana Department of Education. With this transition of authority and required
            implementation between now and J uly 1, 2015; DCFS is not positioned to implement expanded
            monitoring recommendations rega rding Chi ld Day Care Centers policies and procedures at this time.
            These recommendations however, will be shared with the Louisiana Department of Education.

            With regard to the specific findings proposed in your draft report; I offer the following comments:

            Providers Did Not Always Comply With Physical Conditions Requirements

            DCFS Licensing Specialists inspect the buildings and playgrounds of each facility they visit at every vis it.
            When hazardous conditions are observed during the visit, deficiencies are cited. The expectation of
            DCFS is that providers will monitor the buildings and playgrounds that make up their facilities and, if any
            hazardous conditions are observed , the providers will immediately repair, replace or remove the
            hazardous conditions. The conditions cited may indeed have been observed by DHHS-OIG auditors
            during their June 17-19, 2013 site visits. However, subsequently each of the four providers cited in thi s
            audit were revisited by our Licensing Specialists - #15562 on July 8, 2013, #15434 on August 15, 20 13,
            #15331 on August 15, 2013 and #15654 on November 22, 2013. At each of these visits, it was noted
            that the hazardous conditions observed by the auditors had been rectified and were no longer
            hazardous. No new hazardous conditions were observed.



            AA   '~""~'""""""''~'      • '"'" " " " "   .,,..= •=••"oo"''"''"'""'oo   ~~~'""   •m '"''""" '"" ""''   ""~'    "tf
Some Louisiana Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing R equirements (A-06-13-00036)                                                               17
             Page 2 of 2
             July 3, 2014


             One Provider Did Not Always Comply With Required Criminal Records And Child Abuse And
             Neglect Registry Checks

             DCFS agrees that on June 17-19, 2013 the referenced documents may not have been available on-site
             for review. Criminal background clearances and child abuse/neglect Registry Checks are reviewed at
             every visit the Licensing Specialist conducts with each provider. The provider c ited for failing to meet the
             criminal background clearance and child abuse/neglect registry checks in this audit (#15331) was
             revisited on August 15, 2013. Documents were on file at the center for all staff and extra-curricular staff
             at this visit.

             One Provider Did Not Always Comply With The Allowable Child-To-Staff Ratio

            The Child Day Care Minimum Standards require that child-to-staff ratios be met at all times. DCFS
            Licensing Specialists review this regulation with each provider at every visit conducted . The provider
            cited for failing to meet child-to-staff ratio in this audit (#15562) was re-visited on July 8, 2013. The
            provider was found to be in compliance with the child-to-staff ratios at this visit.

            We appreciate the opportunity to partner with the Office of the Inspector General regarding this audit.
            Documentation of the current status of the items discussed herein is available for review at your request.
            We await the opportunity to further discuss our response to this preliminary report or to p rovide
            additional information regarding any potential findings discussed. Please contact Bridget Depland ,
            Interim BACS Director, at 225-342-1043 or bridqet.depland.dcfs@la.gov as needed to continue this
            work.




            Suzy Sonnier
            Secretary


            cc: 	 Lisa Andry, Assistant Deputy Secretary - Programs
                  Sharon Tucker, Deputy Secretary- Operations
                  Sandra Broussard , Assistant Deputy Secretary - Operations
                  Etta Harris, Undersecretary
                  Kaaren Hebert, Policy Advisor
                  Charlie Dirks, Executive Counsel
                  Tia Embaugh , Chief of Staff and Director, Bureau of Communications & Governmental Affairs
                  Bridget Depland, Interim Director, Bureau of Audit & Compliance Services/DCFS Audit Liaison
                  Angie Badeaux, LA-DCFS Licensing Program Director




Some Louisiana Child Day Care Centers Did Not Always Comply 

Wi th State Health and Safety Licensing Requirements (A -06-13-00036) 
                                                      18
